  Office of Inspector General

  Audit Report




EPA’s Competitive Practices
  for Assistance Awards

     Report No. 2001-P-00008

          May 21, 2001
Inspector General Division   Mid-Atlantic Audit Division
Conducting the Audit:        Philadelphia, PA


EPA Offices Involved:        Administrator
                             Administration and Resources
                             Management
                             Air and Radiation
                             Enforcement and Compliance
                             Assurance
                             International Activities
                             Prevention, Pesticides, and
                             Toxic Substances
                             Research and Development
                             Solid Waste and Emergency
                             Response
                             Water
              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                        OFFICE OF INSPECTOR GENERAL

                             MID-ATLANTIC DIVISION

                                 1650 Arch Street

                       Philadelphia, Pennsylvania 19103-2029

                                   (215) 814-5800



                                   May 21, 2001

MEMORANDUM

SUBJECT:	 Final Report of EPA’s Competitive Practices for Assistance Awards
          Report Number 2001-P-00008


FROM:	       Lisa White
             Acting Team Leader
             Mid-Atlantic Division (3AI00)

TO:          David J. O’Connor, Acting Assistant Administrator
              for Administration and Resources Management (3101)


Attached is our final audit report on the United States Environmental Protection
Agency’s (EPA’s) Competitive Practices for Assistance Awards. The objectives of the
audit were to determine whether EPA promotes competition when awarding
assistance agreements, and provides adequate justifications when not competing
assistance agreements.

This audit report contains issues that describe conditions the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit
report represents the opinion of the OIG. Final determinations on matters in this
report will be made by EPA managers in accordance with established EPA audit
resolution procedures. Accordingly, the issues contained in this report do not
necessarily represent the final EPA position, and are not binding upon EPA in any
enforcement proceeding brought by EPA or the Department of Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, you are requested to provide a written response
to the audit report within 90 days of the date of this report. We have no objections to
the further release of this report to the public. If you or your staff have questions,
please contact me or Karen Wodarczyk at (215) 814-5800. For your convenience, this
report will be available at http://www.epa.gov/oigearth/eroom.htm.
                         Executive Summary


Objectives	         The objectives were to
                                                       Competition is essential to
                    determine whether the              ensure that the government
                    Environmental Protection           obtains the most qualified
                    Agency (EPA) promotes
                    competition when awarding
                    assistance agreements, and
                    provides adequate justifications when not competing
                    assistance agreements.



Results in Brief	   EPA does not have a policy that requires program officials to
                    award discretionary assistance funding competitively. As a
                    result, EPA does little to promote competition when awarding
                    assistance agreements. Also, EPA does not provide adequate
                    justifications when awarding assistance agreements
                    noncompetitively. Instead, EPA often awards noncompetitive
                    assistance agreements to recipients based on the unsupported
                    belief that those recipients were the only entities capable of
                    performing the work. EPA indicated requiring competition
                    would conflict with the intent of federal law that only
                    encourages competition. Without competition, EPA cannot
                    ensure:

                    ‚      the highest environmental priorities are funded,

                    ‚      the best projects are funded at the least cost,

                    ‚	     the perception of preferential treatment in EPA’s
                           assistance award procedures is eliminated, and

                    ‚	     all potential applicants have the ability to apply for EPA
                           assistance.

                    Also, EPA’s assistance information is inaccurate in two widely-
                    used sources — the Catalog of Federal Domestic Assistance
                    and EPA’s Grants Information Control System. These
                    inaccuracies occurred because EPA officials do not place

                                                              Report No. 2001-P-00008

                                         i
                    adequate emphasis on the maintenance of reliable assistance
                    program data. As a result, potential assistance recipients were
                    misinformed or unaware of program funding availability and
                    priorities, and decisions by EPA and external users may have
                    been compromised.



Recommendations	 We recommended that the Assistant Administrator for the
                    Office of Administration and Resources Management (OARM):
                    (1) issue a policy stating that program offices award their
                    assistance agreements on a competitive basis to the maximum
                    extent practicable; (2) ensure there are sufficient written
                    justifications to support noncompetitive awards; and (3)
                    ensure annual funding priorities are established and
                    advertised for each assistance program. We also made
                    recommendations related to improving the accuracy of EPA’s
                    assistance program information.



Agency              OARM agreed that the Agency needs to do a much better job
                    in promoting competition, and indicated that it will prepare a
Response and        policy requiring competition of assistance agreement awards.
OIG Comment         OARM stated it will develop an EPA Order that will list those
                    assistance programs for which competition is inappropriate
                    and, for the remaining programs, will require competition
                    unless program offices provide a credible written justification
                    for a non-competitive award. OARM also agreed that better
                    justifications are needed for noncompetitive assistance
                    agreements and will address that issue in the new EPA
                    Order.

                    Regarding the need to ensure annual funding priorities are
                    established and advertised, OARM believes the Catalog of
                    Federal Domestic Assistance serves this purpose. However,
                    we do not believe it sufficiently addresses funding priorities,
                    and greater emphasis needs to be placed on including funding
                    priorities in the Catalog.




                                                           Report No. 2001-P-00008

                                       ii
                                          Table of Contents



Chapter 1 – Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Chapter 2 – EPA Needs to Improve the Integrity of its Assistance
 Award Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

     Guidance on Competition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

     Best Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     EPA Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

     Noncompetitive Awards Without Adequate Justifications . . . . . . . . . . . . . . . 8

     No Widespread Solicitation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Funding Priorities Not Identified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

     Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


Chapter 3 – EPA’s Federal Assistance Program
 Information is Inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             15

     Guidance on Assistance Program Information . . . . . . . . . . . . . . . . . . . . . . . .                            15

     Catalog Information Inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  16

     GICS Information Inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 18

     Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   19

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         20

     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         20

     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       20


Appendix A – Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

    Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


Appendix B – Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


Appendix C – Distribution List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26




                                                                                           Report No. 2001-P-00008

                                                             iii

                           Chapter 1


                           Introduction



Purpose	      The purpose of this audit was to improve the integrity of the
              Environmental Protection Agency’s (EPA’s) award process for
              assistance agreements. The objectives were to determine
              whether EPA:

              (5)	   Promotes competition when awarding assistance
                     agreements.

              (6)	   Provides adequate justifications when not competing
                     assistance agreements.



Background	   An assistance agreement is the
              legal instrument EPA uses to         The OIG recognizes
              transfer funds for a public          assistance agreements as a
                                                   priority because they are the
              purpose in the form of a grant or
                                                   primary vehicle through
              cooperative agreement.               which EPA delivers
              Contracts should be used
              whenever the principal purpose
              of the award is to acquire goods
              or services for the Government’s own use.

              During fiscal year (FY) 1999, EPA awarded more than
              $4 billion in assistance agreements to state and local
              governments, tribes, universities, nonprofit recipients, and
              other entities. These assistance agreements accounted for
              over half the Agency’s $7.5 billion budget. These awards are
              administered under EPA’s 47 assistance programs listed in
              the FY99 Catalog of Federal Domestic Assistance.

              EPA’s Catalog of Federal Domestic Assistance programs
              (CFDA programs) are comprised of 10 continuing
              environmental and 37 discretionary assistance programs:

                                                        Report No. 2001-P-00008

                                   1
‚	         Continuing environmental assistance programs make
           awards to entities in accordance with formulas
           prescribed by law or an agency regulation, or in
           accordance with statutory guidelines. Because EPA
           has no discretion over the selection of the recipients, we
           excluded the 10 continuing environmental assistance
           programs, totaling about $2.7 billion in FY99, from our
           audit.

‚	         Discretionary programs have the legislative authority
           to independently determine the recipients and funding
           levels of financial assistance awards. We determined
           that the remaining $1.3 billion of the $4 billion in
           funding – approximately $900 million awarded to state
           and local governments and tribes and $400 million
           awarded to other recipients – represented discretionary
           funding.

The following chart provides a breakdown by organization of
EPA’s $1.3 billion of discretionary funding awarded in FY99.

                            FY99 Discretionary Awards by EPA Organization
          Organizations that manage the                      CFDA            Total       Total Funds
                  37 programs                               Programs        Awards        Awarded
 Air and Radiation                                                 2            61      $7,188,720
 Water                                                             7           747      85,342,620
 Research and Development                                          1           545     191,860,268
 Administration and Resources Management                           1           351      53,517,004
 Administrator                                                     6           289      23,975,652
 Enforcement and Compliance Assurance                              5           311      29,910,150
 International Activities                                          1             1          15,000
 Prevention, Pesticides, and Toxic Substances                      4           146      16,525,609
 Solid Waste and Emergency Response                                8           754     233,792,705
 Non-Program                           66.606                      1          1,749    617,622,556
 Specific *
                                       66.607                      1           513      38,796,562
                        Totals                                    37          5,467   1,298,546,846
 * 66.606 - Surveys, Studies, Investigations and Special Purpose Grants
   66.607 - Training




                                                                          Report No. 2001-P-00008

                                  2
Because EPA does not have an Agency-wide competition
policy, its assistance award procedures vary from one program
office to the next. Of the 37 discretionary CFDA programs,
EPA officials award assistance agreements:

<     noncompetitively under 19 CFDA programs,

<     competitively under 14 CFDA programs, and

<	    both noncompetitively and competitively under the
      remaining 4 CFDA programs.

When a program official awards an assistance agreement
noncompetitively, a justification should be included in the
Decision Memorandum. The Decision Memorandum is
forwarded by the program office to the Grants Administration
Division and contains the program office’s recommendation to
fund an assistance proposal.




                                     Report No. 2001-P-00008

                  3

                             Chapter 2
       EPA Needs to Improve the Integrity of its Assistance
                      Award Procedures


                 EPA does not have a policy that requires program officials to
                 award discretionary assistance funding competitively. As a
                 result, EPA does little to promote competition when awarding
                 assistance agreements. Also, EPA does not provide adequate
                 justifications when awarding assistance agreements
                 noncompetitively. Instead, EPA often awards noncompetitive
                 assistance agreements to recipients based on the unsupported
                 belief that those recipients were the only entities capable of
                 performing the work. EPA indicated requiring competition
                 would conflict with the intent of the Federal Grant and
                 Cooperative Agreement Act of 1977, because the Act only
                 encourages competition. Without competition, EPA cannot
                 ensure it is funding the best products based on merit and cost-
                 effectiveness, thereby achieving program objectives and
                 accomplishing its environmental mission.


                The Federal Grant and Cooperative Agreement Act of 1977
Guidance on

                states that federal agencies should encourage competition
Competition
    when appropriate in the award of assistance agreements. In
                1979, the Office of Management and Budget (OMB) organized
                an interagency study group to examine competition in federal
                assistance programs. The group identified three basic
                elements that should exist to ensure effective competition in
                assistance award processes. These elements, listed in OMB’s
                report entitled Managing Federal Assistance in the 1980s, are
                as follows:

                ‚	     Widespread solicitation of eligible applicants and
                       disclosure of essential application and program
                       information in written solicitations;



                                                       Report No. 2001-P-00008

                                    4

                  ‚     Independent application reviews that consistently
                        apply written program evaluation criteria; and

                  ‚	    Written justifications for award decisions that
                        deviate from recommendations made by application
                        reviewers.

                  Fact Sheet Number 9: Competition for Assistance Agreements
                  was issued by EPA’s Grants Administration Division in
                  December 1995 and later revised in May 2000. The purpose of
                  the Fact Sheet is to encourage fair and open competition in
                  the award of assistance agreements by indicating that
                  program leaders should: (1) emphasize planning; (2) widely
                  publicize funding availability; (3) provide adequate
                  justifications for noncompetitive awards; and (4) periodically
                  evaluate competition practices, particularly repetitive,
                  noncompetitive awards to the same organizations.


                  Several other federal agencies, including the Departments of
Best Practices	
                  Health and Human Services and Commerce, have prepared
                  policies that embrace competition when awarding assistance
                  agreements. Some key requirements of their competition
                  policies include:

                  ‚	    Widespread solicitation for assistance
                        applications, including selection criteria to
                        ensure awards are based on merit. The
                        solicitation of applicants for program assistance is
                        accomplished through an announcement advertised in
                        the Federal Register or other appropriate publications.

                  ‚	    Independent internal and external review
                        panels to ensure proposals are evaluated
                        without bias. Internal review panels include agency
                        personnel who are not directly linked to the advertised
                        project. External review panels might include industry
                        experts, university professors, and other field-related
                        professionals. Both review panels score and rank the
                        proposals, and provide their results to appropriate
                        agency officials to use when selecting the recipient.

                                                        Report No. 2001-P-00008

                                     5

                       The scores and rankings may not be adjusted to reflect
                       the opinions of people not on the review panels.

                 ‚	    Program officials may not specifically solicit
                       applications from any organization. If unsolicited
                       applications for assistance are received, they are
                       competed to afford funding opportunities to all
                       applicants. Unsolicited proposals are competed under
                       the program announcement that it comes closest to
                       addressing. If outside the scope of a competitive
                       program, the proposal may still be awarded. However,
                       the approving official must provide written
                       documentation showing how the application is so
                       outstanding that it enhances the objectives of the
                       agency. The authority used to fund unsolicited
                       proposals noncompetitively is used sparingly and only
                       in cases of unquestionable merit.



EPA Practices	   EPA’s Fact Sheet Number 9 does not include requirements
                 similar to those of the Departments of Health and Human
                 Services and Commerce. For example, the Fact Sheet does
                 not require competition, including widespread solicitation, or
                 advertising selection criteria. Moreover, it does not mandate
                 the use of independent internal and external review panels, or
                 prohibit informal solicitation of applications by program
                 officials. As a result, the Fact Sheet does little to promote the
                 use of competition in the award of assistance agreements.

                 We interviewed representatives
                 from all of EPA’s headquarters           Discretionary funds,
                 program offices that administer          also known as
                                                          categorical or project
                 EPA’s 37 discretionary programs to       grants, permit the federal
                 determine whether they award             government to exercise
                 their assistance agreements              judgment in selecting the
                 competitively. We found that more        recipient and determining
                 than half of the program offices
                 award all or a portion of their
                 discretionary funds noncompetitively.



                                                         Report No. 2001-P-00008

                                     6
Some of the headquarters program officials indicated they
have limited discretion when the award recipients are:
(a) state and local governments, (b) tribes, or (c) designated by
Congress (earmarked). These officials believe that limited
discretion makes it impractical to award assistance
agreements competitively.

In FY99, EPA awarded approximately $4 billion in assistance
funds. About $3.6 billion of that amount was awarded to state
and local governments and tribes, and many EPA officials
believe these awards could not have been competed. We agree
                             that about $2.7 billion of that
                             amount could not have been
     Continuing
     environmental           competed because it was used for
     program awards are      continuing environmental
     made to entities in     programs. However, the
     accordance with         remaining $900 million was
     formulas prescribed by
     law or an agency        awarded to state and local
                             governments and tribes under
                             EPA’s discretionary programs.
                             Because discretionary funds are
for specific projects and not those of a continuing nature, we
believe a significant portion of the $900 million could have
been competed between various state and local governments
and tribes.

The remaining $400 million represented discretionary funds
awarded to other recipients, including nonprofit organizations
and universities. EPA agrees that awards made to these
recipient types can be competed. However, EPA estimates
that only about half – $200 million – was actually competed.

Some EPA program officials indicated they compete funds
awarded to state and local governments and tribes when such
awards are made under discretionary assistance programs,
and believe competition is necessary. For example, in FY99,
the Brownfields Pilots Cooperative Agreement Program
competed $48 million awarded to state and local governments
and tribes.



                                        Report No. 2001-P-00008

                    7
Noncompetitive   When EPA program offices awarded assistance agreements
Awards Without   noncompetitively, they often did not adequately support why
                 competition was not practiced. A commonly used reason for
Adequate         not competing was “uniquely qualified.” This was used when
Justifications   (1) the applicant was considered the best or only entity
                 capable of performing the work, or (2) an unsolicited proposal
                 was received and determined to be unique. Of the 49
                 assistance agreements in our sample, 20 were awarded
                 noncompetitively, and the “uniquely qualified” justification
                 was used in 15 of those instances. Uniquely qualified
                 suggests that the recipient possesses unique capabilities that
                 make it the only organization qualified to do the work. We
                 interviewed the project officers to determine how the 15
                 grantees were “uniquely qualified.” The following are the
                 explanations provided by the project officers.

                 ‚	     The award was based on an unsolicited proposal
                        that was unique.

                 ‚	     Past experience with the grantee showed it was highly
                        qualified.

                 ‚	     The grantee was the only entity capable of performing
                        the work.

                 These explanations do not satisfy the definition of “uniquely
                 qualified.” They are based solely on the project officers’
                 beliefs, without any documented proof that no other
                 organizations were able to perform the desired work. An
                 undocumented belief that an organization possesses unique
                                                    qualifications does not justify
                                                    making a noncompetitive
                     “A market search should        award. There may be other
                     include, at a minimum, a pre-  qualified applicants unknown
                     award notice in the Federal    to the program officials who
                     Register stating that the
                     Agency expects to make a
                                                    could perform the project
                     noncompetitive award and       more effectively for less
                     inviting other interested and  money. An adequate
                     qualified parties to inquire.” justification for a
                     – Department of Commerce       noncompetitive award could
                      Audit Report, March 1999


                                                          Report No. 2001-P-00008

                                       8

                 include a documented market search to verify or confirm that
                 there is only one source.


                 Widespread solicitation is an effective means to help ensure
No Widespread	
                 that EPA receives proposals from a variety of eligible and
Solicitation	    highly qualified applicants who otherwise may not have
                 known about EPA’s funding availability. However, EPA
                                                  program officials indicated that
                                                  widespread solicitation was not
                    “Government employees will    necessary because “word gets
                    act impartially and not give  out” to eligible applicants.
                    preferential treatment to any
                    private organization or       Program officials explained that
                    individual.”                  they attend and participate in
                    – Executive Order 12674,      numerous meetings, conferences,
                    Principles of Ethical         workgroups, and training
                                                  seminars where environmental
                                                  issues are discussed. As a result,
                 proposals for assistance awards are often sent directly to
                 these program officials. EPA then funds many of the
                 proposals using “uniquely qualified” as the justification for the
                 noncompetitive awards.

                 For example, one proposal was submitted and awarded as a
                 result of the project officer’s participation in a workgroup,
                 where he discussed EPA’s training needs. The justification for
                 this noncompetitive award indicated that the applicant was
                 “uniquely qualified.” However, no documentation existed to
                 support the unique qualifications of the applicant or the
                 project. The project officer acknowledged that other
                 organizations could have conducted the training seminar
                 proposed by the applicant, and therefore the award could have
                 been competed. Another headquarters program office used
                 the same method of awarding assistance agreements,
                 resulting in about $21.5 million of noncompetitive awards in
                 FY99.

                 Using “uniquely qualified” based on an unsolicited proposal as
                 a justification for noncompetitive awards appears to be
                 “boilerplate” language in the Decision Memorandum. We
                 believe this justification is often used by program officials to

                                                          Report No. 2001-P-00008

                                     9
                 circumvent a competitive award process and its primary
                 components, such as widespread solicitations and panel
                 reviews.

                 Without widespread solicitation, EPA is not only limiting
                 potential applicants, but is also creating the appearance of
                 preferential treatment. Furthermore, during our discussions
                 with EPA program officials, we found implications of
                 preferential treatment in the selection of grantees.

                 In some cases, EPA selected a
                 grantee without widespread              “It is very hard to change
                 solicitation based on its previous      the culture that exists at
                                                         EPA. Employees develop
                 history with the organization or        a rapport with certain
                 knowledge about the grantee. For        organizations and
                 example, one noncompetitive             because of these
                 grant for $200,000 was awarded          relationships, the same
                                                         organizations are
                 based upon the project officer’s        selected year after year.”
                 experience with the recipient.
                 Although this project officer told
                 us that others could have
                 performed the work, he asserted that competing the grant
                 would have been a “waste of resources” since he “knew” that
                 the grantee selected would do a good job. While we agree that
                 the applicant certainly could have done a good job, another
                 applicant may have been able to do a better job for the same
                 cost or the same job for less than $200,000.

                 Another noncompetitive award in our sample was based on a
                 referral made from an EPA employee to the project officer.
                 The project officer contacted the applicant and requested that
                 he submit a proposal, which was then funded by EPA.
                 Because the grantee was preselected, no other entities were
                 afforded the opportunity to submit a proposal for this
                 unadvertised award.


                 We believe competing assistance agreements would also
Funding
                 provide assurance that each program’s annual funding
Priorities       priorities are addressed. OMB Circular A-110, Uniform
Not Identified   Administrative Requirements for Grants and Agreements

                                                          Report No. 2001-P-00008

                                    10

           with Institutions of Higher Education, Hospitals, and other
           Non-Profit Organizations, requires agencies to provide the
           public with advance notice of their intended funding priorities
           for discretionary assistance programs unless such priorities
           are established by federal statute. OMB Circular A-102,
           Grants and Cooperative Agreements with State and Local
           Governments, requires the same as A-110 concerning funding
           priorities, but further requires that advance notices be
           publicized in the Federal Register or by other appropriate
           means.

           When we interviewed representatives
           from the offices of four Assistant
           Administrators about the                     EPA would better
           establishment and advertisement of           meet its
                                                        environmental goals
           their annual funding priorities, we          and program
           learned that only one of these four          objectives by
           offices could show us its funding            establishing and
           priorities for FY99. The remaining           advertising funding
                                                        priorities and then
           three could not provide information to       conducting
           support that annual funding priorities
           were established or advertised.

           Annual funding priorities should be established and
           advertised for each program to ensure that funds are being
           awarded effectively and efficiently. Without first having
           priorities established, there is a greater chance that awards
           do not complement program objectives.


           EPA should recognize that a competitive award process will
Summary	
           enhance the integrity of its assistance award procedures by
           helping to ensure:

           (1)    the highest environmental priorities are funded,

           (2)    the best projects are funded at the least cost,

           (3)	   the perception of preferential treatment in EPA’s
                  assistance award procedures is eliminated, and


                                                    Report No. 2001-P-00008

                              11

                    (4)	   all potential applicants have the ability to apply for
                           EPA assistance.



Recommendations	 We recommend that the Assistant Administrator for the
                    Office of Administration and Resources Management:

                    2-1	   Issue a policy stating that program offices award their
                           assistance agreements on a competitive basis to the
                           maximum extent practicable. EPA should consider
                           adopting, as a Best Practice, competitive award
                           procedures similar to those of the Departments of
                           Health and Human Services and Commerce.

                    2-2	   Take appropriate steps to ensure the written
                           justifications used to support noncompetitive awards
                           provide assurances that the awards are made based on
                           merit and cost-effectiveness.

                    2-3	   Ensure annual funding priorities are established and
                           advertised for each assistance program.



Agency              The Office of Administration and Resources Management
                    (OARM) agrees with Recommendation 2-1 and indicates that a
Response            formal competition policy is necessary. Further, they agree
                    that the Agency needs to do a much better job of promoting
                    competition in assistance agreements. As a result, OARM is
                    developing an EPA Order that will replace the current Agency
                    fact sheet on competition. The Order will list those assistance
                    programs for which competition is inappropriate. For the
                    remaining programs, the Order will require competition,
                    unless program offices provide a credible written justification
                    for a noncompetitive award based on stated criteria. The
                    Order will also establish procedures to ensure the level of
                    competition required is commensurate with the amount of
                    funds available for award.

                    With respect to Recommendation 2-2, OARM agrees that
                    better justifications are needed for noncompetitive assistance
                    agreements. The new EPA Order being developed on

                                                            Report No. 2001-P-00008

                                       12

               competition will provide requirements in this area for
               program offices.

               Regarding Recommendation 2-3, OARM believes that annual
               funding priorities are currently being established by each
               program and advertised through the use of the Catalog of
               Federal Domestic Assistance. However, the Grants
               Administration Division will provide more oversight of
               program offices when submitting Catalog changes, deletions,
               or additions to OMB.



OIG Comment	   OARM agreed to prepare a policy requiring competition and
               include requirements for noncompetitive award justifications.
               However, the response did not provide specifics on:

               !	    The program offices’ requirements regarding “credible
                     justifications” for noncompetitive awards.

               !	    The Grants Administration Division’s role in ensuring
                     these requirements will be met.

               !	    The criteria that will be used to determine the
                     assistance programs for which competition will be
                     inappropriate.

               !	    An explanation of how the level of competition will be
                     affected by the amount of funds available for award.

               During the exit conference, EPA officials explained that to
               supplement the EPA Order on competition, detailed guidance
               will be issued to address the items noted above.

               Regarding Recommendation 2-3, OARM believes that the
               Catalog is the instrument for the program offices to advertise
               their funding priorities. However, we found that the program
               offices could not demonstrate they established annual funding
               priorities or advertised them in the Catalog.

               The Catalog consisted of broad program descriptions that did
               not address the programs’ funding priorities. In addition, the

                                                     Report No. 2001-P-00008

                                 13

non-program specific CFDA numbers, such as 66.606 for
Surveys, Studies, Investigations and Special Purpose Grants,
excluded all program-specific information. Over $600 million
was awarded under this CFDA program number, which had
no clearly defined funding priorities. As noted in the report,
the Office of Air and Radiation awarded discretionary funds
for multiple programs under this non-program specific CFDA
number. Since the Office awards almost all of its
discretionary funding noncompetitively with no formal
advertisement, the public is unaware of potential funding
opportunities from this office.

If the Agency maintains that the Catalog is the source for
advertising the programs’ annual funding priorities, then we
recommend that the program offices be made aware of this
practice. Further, OARM should ensure that program offices
include their program funding priorities in the Catalog. For
offices, such as Air and Radiation, which award assistance
agreements under non-program specific CFDA numbers,
OARM should ensure program-specific CFDA numbers are
established in the Catalog and that funding priorities are
included.

In response to the final audit report, OARM should submit a
corrective action plan, including milestone dates for
completion of its actions.




                                       Report No. 2001-P-00008

                  14

                            Chapter 3


   EPA’s Federal Assistance Program Information is Inaccurate



                EPA’s assistance information is inaccurate in two widely-used
                sources — the Catalog of Federal Domestic Assistance and
                EPA’s Grants Information Control System (GICS). These
                inaccuracies occurred because EPA officials do not place
                adequate emphasis on the maintenance of reliable assistance
                program data. Moreover, the Grants Administration Division
                does not provide sufficient oversight to the program offices
                regarding the accuracy of the Catalog of Federal Domestic
                Assistance program (CFDA program) information. As a result,
                potential assistance recipients were misinformed or unaware
                of program funding availability and priorities. Further, EPA
                management decisions can be compromised when reliance is
                placed on inaccurate CFDA program information.


                The Catalog serves the public as
Guidance on
                the primary reference tool and          The Catalog of Federal
Assistance      guide regarding the availability of     Domestic Assistance is
Program                                                 the comprehensive source
                federal assistance. The Catalog         document for the public
Information     includes such information as            on current federal
                program descriptions and available      assistance programs.
                funding amounts for each program.       — OMB Circular A-89,

                OMB Circular A-89 states that           Federal Domestic
                each federal agency will establish
                administrative procedures to
                assure the adequacy and timeliness of program information
                collected and submitted for publication in the Catalog. To
                accomplish this, the Grants Administration Division sends
                biannual letters to each headquarters program office
                requesting they report any CFDA program changes, deletions,
                or additions. The Grants Administration Division then
                gathers the information from program offices and forwards it
                to OMB to be included in the Catalog.


                                                       Report No. 2001-P-00008

                                   15
              GICS is EPA’s management information system for all EPA
              assistance programs. GICS is used by headquarters and the
              regions to award, administer, and monitor grants. The
              Grants Administration Division is responsible for assuring
              that accurate and dependable information on all the
              assistance agreements awarded is recorded in GICS. This
              includes ensuring that every Decision Memorandum
              recommending an assistance award includes the appropriate
              CFDA program number. This number is then entered in
              GICS by the Grants Administration Division. For example,
              assistance awards for the National Estuary Program should
              be recorded in GICS with CFDA program number 66.456.


              We found that EPA has provided incomplete and inconsistent
Catalog
              CFDA program information in the Catalog. Some program
Information   officials believe the Catalog is minimally used and, therefore,
Inaccurate    have disregarded the importance of the biannual updates for
              CFDA program information. We disagree that the Catalog is
              minimally used by the public. In January 2001 alone, the
              Catalog website was accessed more than one million times.
              This demonstrates the importance of the Catalog and the
              widespread use it receives.

              The following are examples of inaccurate information included
              in the Catalog.

              ‚	    Program Annual Funding Priorities — While
                    some narratives discussed the programs’ objectives,
                    only few of the 37 discretionary CFDA programs in the
                    Catalog sufficiently listed funding priorities.

              ‚	    Available Funding Amounts — While only an
                    estimate early in the year, program offices are given
                    the opportunity to update the amounts biannually.
                    However, we found in most cases that the estimates
                    were not updated. For example, the Solid Waste
                    Management Assistance Program (CFDA 66.808)
                    estimated $1.6 million in available funding, yet EPA
                    actually awarded $6.9 million in assistance agreements
                    for this program. Conversely, the Superfund

                                                     Report No. 2001-P-00008

                                 16

      Innovative Technology Evaluation Program (CFDA
      66.807) estimated $6 million for assistance agreements
      for FY99, even though no assistance awards have been
      made for this program since 1996.

In addition to these deficiencies, there are numerous other
EPA assistance programs not appropriately included in the
FY99 Catalog. In these examples, EPA has eliminated the
opportunity for many potential applicants to receive
assistance awards.

‚	    Programs Not in Catalog – EPA program offices
      awarded over $51 million in assistance awards in FY99
      under 13 CFDA programs not listed in that year’s
      Catalog.

‚	    Multiple Programs Under One Catalog Number –
      The Office of Air and Radiation awarded $21.5 million
      in discretionary funds for multiple programs under one
      non-program specific CFDA number rather than
      multiple program-specific numbers. For example,
      $5.6 million of the $21.5 million awarded was for the
      Climate Change Initiative. This Initiative was never
      specifically included in the Catalog as its own CFDA
      program, or officially advertised as a source for
      available assistance funds. Instead, the Office selected
      the recipients noncompetitively and recorded the
      awards under the non-program specific CFDA 66.606 —
      Surveys, Studies, Investigations and Special Purpose
      Grants.

When EPA program officials do not
                                         Accurate and complete
compete their assistance awards          Catalog information is
using widespread solicitation, as        the first step for
noted in Chapter 2, the Catalog is       informing the public of
the only official link between EPA’s
assistance programs and the public.
We are not implying that the Catalog should be used as the
primary means of informing the public of the Agency’s
assistance funding availability, program objectives, and
priorities. However, we do believe that it is imperative that

                                         Report No. 2001-P-00008

                   17
              all CFDA program information in the Catalog be as accurate
              and complete as possible. This will ensure that eligible
              applicants have a reference tool to inform them of potential
              funding opportunities.


              EPA entered into GICS inaccurate CFDA program numbers
GICS
              for assistance agreement awards. When incorrect CFDA
Information   program numbers are used in GICS, CFDA program award
Inaccurate    totals can be drastically skewed, thereby causing EPA
              managers who rely on such data to make inappropriate
              funding and budget decisions. Program managers may also
              use these inaccurate CFDA program totals from GICS as a
              basis for estimating future funding availability for their
              program. Furthermore, compromised decisions could occur
              when users outside EPA rely on inaccurate GICS information.

              GICS reports can be generated based on the CFDA program
              numbers, and EPA management can learn the total amount of
              funds awarded under specific CFDA programs in any given
              fiscal year. However, of the 37 discretionary programs that
              we reviewed, 22 (or 59%) had CFDA program totals in GICS
              for FY99 that were inconsistent with what the program
              officials believed was awarded under their CFDA programs.
              For example:

              ‚     GICS showed no awards in FY99 under CFDA 66.033
                    — Ozone Transport Program. However, there was
                    actually $650,000 in assistance agreements awarded
                    under this program. These awards were
                    inappropriately recorded under CFDA 66.606 —
                    Surveys, Studies, Investigations and Special Purpose
                    Grants.

              ‚	    EPA awarded nearly $1 million in assistance
                    agreements that should have been listed under CFDA
                    66.930 — U.S.– Mexico Border Grant Program.
                    However, only one award, for $15,000, was listed in
                    GICS under this CFDA program; the remaining awards
                    were inappropriately recorded in GICS under CFDA
                    66.606.

                                                    Report No. 2001-P-00008

                                18

           ‚	    In FY99, EPA awarded about $7 million in assistance
                 awards that should have been listed under CFDA
                 66.463 — Water Quality Cooperative Agreement
                 Program. Instead, these awards were also
                 inappropriately listed under CFDA 66.606. It was not
                 until we brought this to the attention of the program
                 officials that corrections were made in GICS to ensure
                 all the Water Quality Cooperative Agreement awards
                 were listed under CFDA 66.463.

           GICS data is not only used for internal management
           decisions. Quarterly, EPA generates information from GICS
           based on CFDA program numbers and submits the data to the
           U.S. Census Bureau to use for the Federal Assistance Award
           Data System (FAADS). FAADS is a central collection of
           selected, computer-based data on federal financial assistance
           award transactions reported by all federal agencies. FAADS
           promotes the government’s effort to provide access to
           information on federal assistance activities. The reports are
           issued to states and Congress, and identify recipients and
           award amounts by CFDA program number. If CFDA program
           information is inaccurately entered in GICS, the unreliable
           data eventually makes its way to Congress, thereby conveying
           unreliable information about how EPA awards its assistance
           funds.


           EPA should establish CFDA program descriptions and
Summary	
           numbers in the Catalog for all its assistance programs. This
           information, coupled with effective competition practices, will
           ensure that EPA has a larger universe from which to select
           the most qualified grantees and use its assistance funds in the
           most efficient manner, thereby improving the integrity of its
           assistance award procedures. Also, EPA should ensure that
           award data contained in GICS is accurate and reliable so that
           it reflects the actual totals for awards made under EPA’s
           CFDA programs. We recognize that EPA is replacing GICS
           with a new data management system. Nonetheless, the same
           accuracy and reliability is needed for the new system.


                                                 Report No. 2001-P-00008

                             19

Recommendations	 We recommend that the Assistant Administrator for the
                    Office of Administration and Resources Management:

                    3-1	   Develop and implement CFDA program guidance and
                           training to help ensure that EPA personnel record
                           correct CFDA program numbers for their assistance
                           awards, and update the Catalog with current program
                           information.

                    3-2	   Have data verification procedures in place for GICS or
                           its replacement to ensure data quality and integrity for
                           CFDA program information.



Agency	             Regarding the findings in Chapter 3, OARM agrees that the
                    Catalog is very useful and is constantly used by the public
Response	           sector as a reference tool and guide regarding the availability
                    of federal financial assistance. OARM is committed to
                    assisting program offices in developing and updating
                    appropriate information for the Catalog to reflect Agency
                    funding priorities. Additionally, it believes the training and
                    data checks in the development and deployment of the
                    Integrated Grants Management System will provide an
                    appropriate vehicle to ensure CFDA program data quality and
                    integrity.



OIG Comment	        Although OARM agreed that the Catalog is used by the public
                    as a reference tool, it did not provide specific corrective action
                    it plans to take regarding the use of inaccurate CFDA
                    program numbers by EPA personnel, and the existence of
                    outdated program information in the Catalog. During the exit
                    conference, OARM indicated that the training in the
                    deployment and development of the Integrated Grants
                    Management System will ensure CFDA program data quality.


                    Recommendation 3-2 was satisfied by OARM’s response that
                    training and data checks for the Integrated Grants
                    Management System will provide an appropriate vehicle to
                                                            Report No. 2001-P-00008

                                       20

ensure CFDA program data quality and integrity. No further
response is necessary.

In response to the final audit report, OARM should submit a
corrective action plan, including milestone dates for
completion of action it plans to take regarding the use of
inaccurate CFDA program numbers by EPA personnel, and
the existence of outdated program information in the Catalog.




                                      Report No. 2001-P-00008

                  21

          Appendix A

    Scope and Methodology



We performed this audit in accordance with the 1994

Government Auditing Standards (revised) issued by the

Comptroller General of the United States, as they apply to

program audits. This audit included tests of the program

records and other auditing procedures we considered

necessary. We also conducted this audit according to the

guidelines and procedures established in the Office of

Inspector General Audit Process Handbook effective

April 19, 2000.


We reviewed management controls and procedures specifically

related to our objectives. However, we did not review the

internal controls associated with the input and processing of

information in EPA’s Grants Information Control System or

any other automated records system. We also reviewed EPA’s

FY99 Assurance Letter that was prepared to comply with the

Federal Managers’ Financial Integrity Act, and noted no

weaknesses that address EPA’s competitive practices for

assistance agreements.


We reviewed the Federal Grant and Cooperative Agreement

Act of 1977, OMB circulars, the Catalog of Federal Domestic

Assistance, and EPA guidance regarding assistance

agreements. We obtained the competition policies for the

Department of Commerce, the Department of Health and

Human Services, the National Science Foundation, and the

Department of Labor to identify best practices for competing

assistance agreements. 


To accomplish our objectives, we interviewed managers from

the Grants Administration Division to learn whether EPA’s

headquarters program officials use competition when

awarding assistance agreements, but they were unable to tell

us. Therefore, we conducted more than 50 interviews with


                                      Report No. 2001-P-00008

                  22

              key personnel from 37 headquarters program offices to learn
              about their award procedures. We also conducted some
              teleconferences with regional program officials.

              In conjunction with these interviews, we selected a random
              sample of 49 assistance agreements. We reviewed both the
              Grants Administration Division files and the project files
              maintained by the program officials. We obtained copies of
              program decision memoranda and other pertinent award
              information. The files were reviewed to determine whether
              competition was used and, if not, whether program officials
              provided adequate justification.

              We completed the preliminary research phase of our audit on
              September 7, 2000. We later met with officials from EPA’s
              OARM and presented the results of our research. On
              December 20, 2000, we provided finding outlines with
              recommendations to OARM for review. Generally, they
              agreed with our recommendations and initiated some
              corrective action. We completed our fieldwork on January 31,
              2001 and issued the draft report on
              March 19, 2001. We held an exit conference with OARM on
              May 3, 2001. OARM’s comments and our evaluation are
              summarized at the end of each chapter, and the complete
              response is provided in Appendix B.


              On March 31, 1998, the EPA Office of Inspector General
Prior Audit
              issued an audit report on a nonprofit organization that
Coverage      received EPA funds. The audit disclosed that EPA awarded a
              noncompetitive cooperative agreement to the grantee without
              adequate justification. This created the appearance of
              preferential treatment that compromised the integrity of the
              program. Another EPA audit report, dated September 30,
              1998, also addressed concerns regarding competition. This
              audit noted that noncompetitive awards often did not include
              the required justifications.




                                                    Report No. 2001-P-00008

                                23

                                       Appendix B

                                    Agency Response


                                      April 16, 2001

MEMORANDUM

SUBJECT:	      Draft Report of EPA’s Competitive Practices for Assistance Awards
               Report Number 2000-000044

FROM:	         David J. O’Connor / signed David J. O’Connor /
               Acting Assistant Administrator (3101)

TO:	           Carl A. Jannetti
               Divisional Inspector General for Audit
               Mid-Atlantic Division (3AI00)

        This responds to your March 19, 2001 request to the Office of Administration and Resource
Management (OARM) for a written response to the findings and recommendations presented in
subject audit report.

       The following are comments on specific portions of the draft.

        Page 2, first bullet. We recommend that the reference to “formula programs” be changed to
“continuing environmental grant programs.” The paragraph would therefore read:
"Continuing environmental grant programs make awards to entities in accordance with formulas
prescribed by law or an agency regulation, or in accordance with statutory guidelines. Because EPA
has no discretion over the selection of the recipients, we excluded the 10 continuing environmental
grant programs, totaling about $2.7 billion in FY 99, from our audit."

       Page 4, EPA Needs to Improve the Integrity of its Assistance Award Procedures. The first
paragraph states that EPA does not provide “adequate justification” when awarding assistance
agreements noncompetitively. We agree that credible justifications are necessary when awards are
made without competition. The new EPA Order we are developing on competition in assistance
agreements will provide requirements in this area for program offices.

        Page 12, Recommendation 2-1. The Office of Inspector General (OIG) recommends that the
Agency issue a policy requiring program offices to compete assistance agreements “to the maximum
extent possible.” While OARM agrees that a formal competition policy is necessary, we believe the
policy should reflect the competition standards for assistance agreements contained in the Federal
Grant and Cooperative Agreement Act (FGCAA), 31 U.S.C. §§ 6301 et seq. In the FGCAA, Congress
drew a careful distinction, for competition purposes, between contracts and assistance agreements.
One of the stated purposes of the FGCAA is to “...maximize competition in making procurement
contracts.” Conversely, for assistance agreements, agencies are “to encourage competition....” In

                                                                        Report No. 2001-P-00008

                                                24

view of this distinction, OARM believes that the OIG’s recommended standard – competition to the
maximum extent possible- is inconsistent with the nature of assistance agreements.

        We agree with the OIG that the Agency needs to do a much better job of promoting
competition in assistance agreements. To that end, OARM is developing an EPA Order that will
replace the current Agency fact sheet on competition. The Order will list those assistance programs
for which competition is inappropriate. For the remaining programs, the Order will require
competition unless program offices provide a credible written justification for a non-competitive
award based on stated criteria. The Order will also establish procedures for competitive awards.
Under those procedures, the level of competition required will be commensurate with the amount of
funds available for award.

      Page 12, Recommendation 2-2. We agree that better justifications are needed for
noncompetitive assistance agreements. The new EPA Order will address this issue.

        Page 12, Recommendation 2-3. We believe that annual funding priorities are currently being
established by each program and advertised through the use of the Catalog of Federal Domestic
Assistance (CFDA). However, the Grants Administration Division (GAD) will provide more
oversight of program offices when submitting CFDA changes, deletions or additions to the Office of
Management and Budget.

        Page 14, Catalog Information Inaccurate. We agree with the OIG that the CFDA is very
useful and is constantly used by the public sector (along with other resources, such as the Federal
Register, the Commerce Business Daily, the Internet, and trade journals) as a reference tool and
guide regarding the availability of Federal Financial Assistance. GAD is committed to assisting
program offices in developing and updating appropriate information for the CFDA to reflect Agency
funding priorities.

       We appreciate the opportunity to comment on the draft report and look forward to discussing
our comments with you. We believe our formal, written policy on competition and its
implementation will address your major concerns. Moreover, the training and data checks in the
development and deployment of the Integrated Grants Management System will provide an
appropriate vehicle to ensure CFDA data quality and integrity.

       If you have any questions about these comments, please contact Howard Corcoran at (202)
564-1903.



cc:	   Jane Moore
       Lisa White
       Marty Monell
       John Showman
       Sandy Womack-Butler




                                                                        Report No. 2001-P-00008

                                                25

                                 Appendix C

                                Distribution List



Office of Inspector General

Inspector General (2410)

Assistant Inspector General for Audit (2421) 

Assistant Inspector General for Planning, Analysis and Results (2450)

Assistant Inspector General for Program Evaluation (2460)

Congressional/Media Relations Liaison (2410)

Divisional Offices of Inspector General


EPA Headquarters

Acting Assistant Administrator for Administration and Resources
 Management (3101)
Acting Assistant Administrator for Air and Radiation (6101)
Acting Assistant Administrator for Enforcement and
 Compliance Assurance (2201A)
Acting Assistant Administrator for International Activities (2610R)
Acting Assistant Administrator for Prevention, Pesticides, and
 Toxic Substances (7101)
Acting Assistant Administrator for Research and Development (8101R)
Acting Assistant Administrator for Solid Waste and Emergency Response (5105)
Acting Assistant Administrator for Water (4101)
Comptroller (2731A)
Agency Followup Official (the CFO)(2710A)
Agency Audit Followup Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental
 Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Communications, Education, and
 Media Relations (1101A)
Director, Office of Grants and Debarment (3901R)
Director, Grants Administration Division (3903R)
Director, Office of Executive Support (1104)


                                                            Report No. 2001-P-00008

                                        26

